        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
County of Los Angeles – Energy
Efficiency and Conservation Block
Grant Program Funds Provided by
the American Recovery and
Reinvestment Act of 2009




OAS-RA-13-02                        October 2012
                                 Department of Energy
                                   Washington, DC 20585
                                        October 9, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                   Rickey R. Hass
                        Deputy Inspector General
                           for Audit Services
                        Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "County of Los Angeles –
                         Energy Efficiency and Conservation Block Grant Program Funds
                         Provided by the American Recovery and Reinvestment Act of 2009"

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of the County of Los Angeles'
(County) implementation of the American Recovery and Reinvestment Act of 2009 (Recovery
Act) Energy Efficiency and Conservation Block Grant Program (EECBG Program). The Office
of Inspector General (OIG) contracted with an independent certified public accounting firm,
Lopez and Company, LLP, to express an opinion on the County's compliance with Federal laws,
regulations and program guidelines applicable to the EECBG Program. The County is a grant
recipient of the Department of Energy's (Department) Recovery Act EECBG Program funding
for the State of California.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. The County received a $15.4 million formula grant award that was to
be expended over a 3-year period from September 28, 2009 through September 27, 2012. The
County also received a $30 million competitive grant award that was to be expended over a
3-year period from June 3, 2010 through June 2, 2013.

OBSERVATIONS AND CONCLUSIONS

Lopez and Company, LLP, expressed the opinion that the County complied in all material respects
with the aforementioned requirements and guidelines relative to the EECBG Program for the period
September 28, 2009 through June 30, 2011. The report includes advisory comments that represent
control deficiencies that were not significant enough to adversely affect the County's ability to
record, process, summarize and report data reliably, and are offered to County management as an
opportunity for improvement.
                                                2

Specifically, the County:

     • Failed to record the grant funding source and corresponding percentage of Federal
       participation for $800,000 in computer purchases in its fixed asset records; and,

     • Overstated total labor hours for a contractor included in the County's Recovery Act
       report for June 2011, due to a calculation error and a lack of review.

The report makes recommendations for improving the administration of the County's EECBG
Program. The County provided comments that expressed agreement with the recommendations
and provided planned and ongoing actions to address the issues identified. While these
comments and planned corrective actions are responsive to the recommendations, the
Department needs to ensure the planned actions are taken.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy:

     1. Verify that the County revised its policies and procedures to ensure fixed asset records
        contain all Department-required data fields, such as Federal grant funding source and
        level of cost-share for asset purchases; and,

     2. Direct the County to establish and implement policies and procedures to ensure accurate
        compilation and submission of Recovery Act reporting and retention of appropriate
        supporting documentation.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with our recommendations outlined in this memorandum. The
Department stated it would work with the County to ensure plans are implemented to address the
recommendations. The Department's comments are included in their entirety in Attachment 2.

The Department's comments are responsive to our recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants, as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
County's policies and procedures and reviewing applicable Program documentation. The
procedures also included an analysis of activity progress, reimbursement drawdown requests,
and compliance with required reporting. Finally, an analysis of associated expenditure data was
conducted to test the allowability of payments.
                                               3

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lopez and Company, LLP did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP is
responsible for the attached report dated June 19, 2012, and the conclusions expressed in the
report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                                         Attachment 1




                           EXAMINATION REPORT ON COMPLIANCE

                                                                   OF

        Recovery Act Energy Efficiency and Conservation Block Grant Program

                                                County of Los Angeles

                                                              ____

                                                  PERFORMED FOR

                                    U.S. DEPARTMENT OF ENERGY
                                   OFFICE OF INSPECTOR GENERAL




                                                         Prepared by

                                             Lopez and Company, LLP

                                            Report Date
                                                   Date: June 19, 2012


                                CONTRACT NUMBER: DE
                                                 DE-IG0000017

                                    WORK ORDER NUMBER: 2011
                                                       2011-06




14728 Pipeline Avenue▪▪ Suite E ▪ Chino Hills ▪ California 91709
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                                                                                Attachment 1 (continued)



                                                    Table of Contents



INDEPENDENT ACCOUNTANT’S REPORT ........................................................................ 1

Section I Description of the County of Los Angeles Energy Efficiency and Conservation
          Block Grant Program .................................................................................................. 2

Section II Classification of Findings........................................................................................... 3

Section III Summary of Findings ............................................................................................... 4

Section IV Schedule of Findings ................................................................................................. 5

Section V Complete Management Response ............................................................................. 8




                                                                                                   Lopez and Company, LLP
         Attachment 1 (continued)




Page 1   Lopez and Company, LLP
                                                                  Attachment 1 (continued)


 Section I Description of the County of Los Angeles Energy Efficiency
               and Conservation Block Grant Program
The Office of Sustainability (COS) was created within the County of Los Angeles
(County) Internal Services Department (ISD) in October 2009. One of its main functions
is to serve as a central hub to coordinate energy efficiency, conservation, and
sustainability programs within the County.

Under the Energy Efficiency and Conservation Block Grant (EECBG) Program, the
County offers assistance to develop, promote, implement and manage energy efficiency
and conservation projects and programs designed to reduce fossil fuel emissions, reduce
total energy use of the eligible entities, and improve energy efficiency in the
transportation, building and other appropriate sectors. As part of the American Recovery
and Reinvestment Act of 2009 (Recovery Act), the U.S. Department of Energy's
(Department) Office of Energy Efficiency and Renewable Energy received $3.2 billion in
EECBG Program funding. Of this amount, $2.7 billion was awarded through formula
grants and $454 million was allocated through competitive grants.

The County received a $15.4 million formula grant award, which was to be expended
over a 3-year period from September 28, 2009 through September 27, 2012. The County
has four activities under the grant, including a Community Scale Retrofit Program,
Municipal Green Building Retrofit Program, Green Building Ordinance, and Regional
Climate Action Planning.

The County also received a $30 million competitive grant award, which was to be
expended over a 3-year period from June 3, 2010 through June 2, 2013. The Better
Buildings Program (Innovative Pilots for Retrofit) is the County's single activity for the
competitive grant award.




                                         Page 2                      Lopez and Company, LLP
                                                                  Attachment 1 (continued)


                       Section II Classification of Findings


Material Weakness
For purposes of this engagement, a material weakness is a significant deficiency or
combination of significant deficiencies that results in more than a remote likelihood that a
material misstatement of the subject matter will not be prevented or detected.

Significant Deficiency
For purposes of this engagement, a significant deficiency is a deficiency in internal
control, or combination of deficiencies, that adversely affects the County’s ability to
initiate, authorize, record, process, or report data reliably in accordance with the
applicable criteria or framework, such that there is more than a remote likelihood that a
misstatement of the subject matter that is more than inconsequential will not be prevented
or detected.

Advisory Comments
For purposes of this engagement, an advisory comment represents a control deficiency
that is not significant enough to adversely affect the County’s ability to record, process,
summarize, and report data reliably.

Advisory comments presented represent matters that came to our attention during the
course of the review, and are offered to the County’s management as an opportunity for
improvement. The advisory comments are provided along with recommendations and
discussion of the significance of the comments.




                                          Page 3                      Lopez and Company, LLP
                                                               Attachment 1 (continued)


                       Section III Summary of Findings



Area/Finding


       Advisory Comments
Fixed Assets
       IV.1    Fixed Asset Ledger Lacks Required Information
Financial Management and Reporting
       IV.2    Contractor Hours Not Properly Reported




                                      Page 4                      Lopez and Company, LLP
                                                                  Attachment 1 (continued)

                          Section IV Schedule of Findings
FIXED ASSETS

IV.1     Fixed Asset Ledger Lacks Required Information (Advisory Comment)

Condition
During our review of fixed assets purchased, we found that the County's Financial
Reporting System did not record the grant funding source for each fixed asset or the
corresponding percentage of Federal participation for ISD. The grant agreement and
Federal regulations (10 CFR 600.232) require that equipment records be maintained
accurately, including information disclosing the percentage of Federal participation in the
cost of equipment purchased.

Our examination found that the ISD had spent $1,013,000 to consolidate computer
operations from 119 servers to 10 servers. The County's EECBG formula grant funded
$800,000 or 80% of the cost. The server consolidation effort was part of the County's
EECBG Energy Efficiency retrofit activity approved by the Department to reduce energy
costs by adding modern, energy efficient computers. The fixed asset ledger records did
not contain required information about the grant funding source or percentage of Federal
participation.

Cause
Management was not aware of the Federal requirement to document in its records the
asset funding source or the percentage of Federal participation in the cost of equipment.
Additionally, the ISD's fiscal policy manual does not refer to Federal regulations
requiring the inclusion of specific asset information.

Effect
The lack of cost detail in the fixed asset records may result in the failure of the County or
the ISD to properly notify and receive approval from the Department for EECBG asset
disposals. Fixed assets with a per unit fair market value in excess of $5,000 at the time of
disposal require the grantee to remit to the awarding agency an amount calculated by
multiplying the current market value or proceeds from sale by the awarding agency's
share of the equipment.

Recommendation
1.1      We recommend that the ISD revise its policies and procedures to ensure that fixed
         asset records contain all Department-required data fields, such as Federal grant
         funding source and level of cost share for asset purchases.




                                          Page 5                     Lopez and Company, LLP
                                                                   Attachment 1 (continued)

                  Section IV Schedule of Findings (continued)
Management Response
Management agreed with the finding and recommendation. In October 2011, ISD
corrected its fixed asset records to reflect the required data fields in accordance with its
grant agreement and Federal regulations. Currently, ISD is in the process of revising its
internal procedures to ensure that all required data fields are included in fixed asset
records.

We consider the County's management response to be adequate.




                                          Page 6                      Lopez and Company, LLP
                                                                 Attachment 1 (continued)

                  Section IV Schedule of Findings (continued)
FINANCIAL MANAGEMENT AND REPORTING

IV.2     Contractor Hours Not Properly Reported (Advisory Comment)

Condition
We noted during the course of our examination that total labor hours for a contractor
included in the County's Recovery Act (1512) report for June 2011 were overstated.
Total contract hours reported were 234 hours, while total actual hours per contractors'
timesheets were 85 hours. In arriving at the total number hours reported, the grant
administrator erroneously calculated the hours worked by the contractor. The
administrator's calculation was not reviewed for accuracy and supporting documentation
was not maintained.

Cause
The ISD had no formal policies and procedures for receiving, compiling, reviewing and
reporting actual hours reported in contractors' timesheets. The ISD did not document its
support for the number submitted to the State.

Effect
Incorrect reporting by the County/ISD of jobs created and retained may result in faulty
data being utilized by the Department in its compilation of Recovery Act job statistics.

Recommendation
2.1      We recommend that the ISD establish and implement policies and procedures to
         ensure accurate compilation and submission of Recovery Act reporting and that
         appropriate supporting documentation is maintained.

Management Response
Management agreed with the finding and recommendations. In September 2011, ISD
made corrections to reflect total actual hours worked. ISD has implemented written
procedures to properly track labor hours charged to the grant.

We consider the County's management response to be adequate.




                                         Page 7                     Lopez and Company, LLP
                                   Attachment 1 (continued)
Section V Complete Management Response




               Page 8             Lopez and Company, LLP
                                  Attachment 1 (continued)
Section V Complete Management Response




               Page 9             Lopez and Company, LLP
                                  Attachment 2

DEPARTMENT COMMENTS




      Page 10         Lopez and Company, LLP
          Attachment 2 (continued)




Page 11   Lopez and Company, LLP
                                                                 IG Report No. OAS-RA-13-02


                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit or inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
